OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/AFGHANISTAN’S
HUMAN RESOURCES AND
LOGISTICAL SUPPORT
PROGRAM
AUDIT REPORT NO. 5-306-10-007-P
MARCH 31, 2010




MANILA, PHILIPPINES

Office of Inspector General


March 31, 2010

MEMORANDUM

TO:       	          USAID/Afghanistan Mission Director, William M. Frej

FROM: 	              Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:	            Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program
                     (Audit Report No. 5-306-10-007-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and included the comments in their entirety in
appendix II.

This report contains 12 recommendations to assist the mission in improving its management
and oversight of the Human Resources and Logistical Support program. On the basis of the
information provided by the mission in response to the draft report, we determined that
management decisions have been reached on recommendations 2, 5, 6, 7, 8, and 12. In
addition, final action has been taken on recommendations 1, 3, 4, 9, 10, and 11. A
determination of final action will be made by the Audit Performance and Compliance Division
upon completion of the planned corrective actions for recommendations 2, 5, 6, 7, 8, and 12.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Passy City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


Is USAID/Afghanistan’s Human Resources and Logistical Support Program achieving its 

main goals of enhancing capacity at selected ministries, identifying USAID-constructed
buildings that do not meet seismic standards, and providing quality assurance and
engineering oversight for mission construction projects?

     Many USAID-Built Structures Have Been
     Found To Be Unsafe, and More Defective
     Structures Have Yet To Be Identified.......................................................................... 6

     Prior Reported Building Defects
     Have Not Been Corrected ........................................................................................... 8

     Not All Mission Construction Projects
     Are Covered by Contract Quality
     Assurance Support.................................................................................................... 11

     Sustainability of the $3.9 Million
     Afghanistan Infrastructure Data Center
     Is Questionable ......................................................................................................... 16

     Contractor Performance Reviews
     Were Not Completed................................................................................................. 18 


Evaluation of Management Comments ....................................................................... 19 


Appendix I—Scope and Methodology......................................................................... 21 


Appendix II—Management Comments........................................................................ 23 

SUMMARY OF RESULTS

In February 2006, USAID/Afghanistan launched its Human Resources and Logistical
Support Program (the program) to provide a broad range of human resources and
logistical support to help design, monitor, and support the activities of USAID-funded
contractors. The program would also provide consulting services to selected ministries
of the Afghan Government. USAID/Afghanistan awarded a 5-year, $58 million contract
to International Relief and Development, Inc., to implement the program. In September
2009, USAID/Afghanistan increased the contract ceiling price to $72 million. As of
September 30, 2009, USAID/Afghanistan had obligated $47 million and disbursed
$36 million for program activities. The main goals of the program are to (1) enhance
capacity at selected ministries; (2) identify USAID-constructed buildings that do not meet
seismic standards; and (3) provide quality assurance and engineering oversight for
mission construction projects (page 3).

The mission has made progress toward achieving these three goals. Specifically, the
program had made progress in capacity building within selected Afghan ministries,
identified defective USAID-built structures, and provided engineering oversight for
mission construction projects.

In support of its first goal, the program provided the Afghan Government with additional
capacity, mainly within three ministries. Technical consultants hired under the program
assisted Ministry of Mines personnel in preparing a proposal for the rehabilitation of gas
fields to generate electrical power for the country. Meanwhile, at the Ministry of Public
Works, program advisers initiated the development of a pilot program to teach ministry
staff how to implement and monitor road construction projects and provide them with a
more efficient means of managing and maintaining roads in the future. At the Ministry of
Energy and Water, the program contractor provided a transboundary water-rights
adviser to help the ministry develop water policies for negotiations with neighbors in
other countries (page 4).

With regard to the second goal, evaluating and identifying USAID-built structures that did
not meet seismic standards, the program was successful in establishing a process for
identifying structures that are not earthquake resistant. The mission has a database of
1,474 USAID-built structures, but the database is not complete. The mission will likely
identify and add more structures as it updates the database. As of October 2009, the
program had completed preliminary assessments of 468 of these structures and detailed
structural seismic evaluations of 35. So far, the program has found 15 structures to be
unsafe for occupancy (pages 4–8).

With regard to the third goal, providing quality assurance and engineering oversight on
USAID construction projects, the program has succeeded in providing these services for
projects initiated by the mission’s Office of Infrastructure, Engineering and Energy.
However, the mission has not been as successful in providing quality assurance
services for construction projects initiated by other USAID/Afghanistan program offices
(pages 5, 11–15).

Despite the program’s progress in addressing its three main goals, it has serious issues
that need to be addressed. The most critical issue is to identify the many defective


                                                                                        1
structures that probably remain among the estimated 1,474 mission-built structures. The
total number of defective structures will be determined when the remainder of the
preliminary assessments and any subsequent detailed seismic evaluations are
completed. The mission anticipates that the contractor will complete 200 seismic
evaluations by the end of the contract. In addition, significant defects in five buildings
reported in a prior Office of Inspector General audit report1 had yet to be corrected
(pages 8–11). If all defective structures are not identified, and if those already identified
are not repaired or rebuilt, a catastrophic earthquake could cause many injuries and
deaths (pages 6–8).

This report makes 12 recommendations to improve mission implementation of its
construction programs. These recommendations address the need for plans to:

•	 Repair or rebuild structures that are seismically unsafe (page 8).

•	 Correct defects found in five USAID-built structures identified in a previous OIG
   report (page 11).

•	 Ensure that all mission construction projects are subject to adequate quality
   assurance (page 15).

•	 Ensure the sustainability of a $3.9 million data center developed under the program
   (page 17).

•	 Ensure that contractor performance reports are completed annually (page 18).

On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final actions have been taken on recommendations 1,
3, 4, 9, 10, and 11, while management decisions have been reached on
recommendations 2, 5, 6, 7, 8, and 12 (page 19). The mission’s written comments on
the draft report are included in their entirety, without attachments, as appendix II to this
report (page 23).




1
   “Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program,” Audit Report No.
5-306-08-009-P, August 8, 2008.

                                                                                              2
BACKGROUND

Emerging from more than 20 years of conflict and a severe nationwide drought, the
Islamic Republic of Afghanistan faces a complex and interrelated set of political,
economic, and social challenges. One of USAID's important strategic objectives in
Afghanistan is to revitalize and expand the country’s economy. USAID/Afghanistan, in
coordination with other donors, has been supporting a major program for infrastructure
reconstruction and development to help spur economic growth and rehabilitate the
economy.

Afghanistan’s need for infrastructure reconstruction and development is underscored by
the Afghan Government’s development strategy. The Afghan Government, with the
support and cooperation of the international community, finalized a 5-year Afghanistan
national development strategy that defines the vision, principles, and goals for the
country’s development. According to the strategy, Afghanistan has experienced success
in the areas of education, through increased enrollment and school construction; health
care, through increased construction of clinics; and livelihoods, through access to better
roads.     However, the strategy notes that more needs to be accomplished in
infrastructure development to sustain these gains.

In February 2006, USAID/Afghanistan launched its Human Resources and Logistical
Support Program (the program) to provide a broad range of human resources and
logistical support services to help design, monitor, and support the activities of
USAID/Afghanistan-funded contractors. The program also provides consulting services
to selected ministries of the Afghan Government. USAID/Afghanistan awarded a 5-year,
$58 million contract to International Relief and Development, Inc. (IRD), to implement the
program.     Goals included enhancing capacity at various ministries, identifying
USAID/Afghanistan-constructed buildings that do not meet seismic standards, and
providing ongoing quality assurance and engineering oversight for mission construction
projects.

In September 2009, USAID/Afghanistan increased the contract ceiling price to
$72 million. As of September 30, 2009, USAID/Afghanistan had obligated $47 million
and disbursed $36 million for program activities.

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2009 annual audit plan to answer the following question:

•	 Is USAID/Afghanistan’s Human Resources and Logistical Support Program
   achieving its main goals of enhancing capacity at selected ministries, identifying
   USAID-constructed buildings that do not meet seismic standards, and providing
   quality assurance and engineering oversight for mission construction projects?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        3
AUDIT FINDINGS

The mission has made progress in achieving its three main goals for the Human
Resources and Logistical Support Program (the program). Specifically, the program
made progress in building capacity within selected Afghan Government ministries,
identifying defective mission-built structures, and providing engineering oversight for
mission construction projects.

In terms of the first goal, the program was able to provide the Afghan Government with
additional capacity within three of its ministries. Technical consultants from the program
assisted Ministry of Mines personnel in the preparation of a proposal for the
rehabilitation of the Sheberghan gas fields, which are being considered as a potential
source of natural gas to use in generating additional electrical power for the country. At
the Ministry of Public Works, program advisers initiated the development of a pilot
program to teach ministry staff how to implement and monitor road construction projects
and provide them with a more efficient means of managing and maintaining roads in the
future. Meanwhile, the program contractor provided a transboundary water-rights
adviser to the Ministry of Energy and Water to help it develop water policies for
negotiations with its neighbors in other countries.

With regard to the second goal, of evaluating and identifying USAID-built structures that
do not meet seismic standards, the program was successful in establishing a process for
identifying structures that are not earthquake resistant and for creating plans for the
demolition and reconstruction of some structures deemed unsafe for occupancy. To
identify USAID/Afghanistan-built structures that are not earthquake resistant, the
program established the Building Forensics Task Force. The task force planned to
evaluate the level of seismic resistance of USAID/Afghanistan-built structures and
develop plans for buildings that it determined structurally unsafe. The process used by
the task force is described in the flowchart below:


     Buildings Forensics Task Force Process for Identifying Defective Structures


      Prepare preliminary assessments on             Conduct detailed seismic analyses
      USAID-built structures                         on selected structures.




      Mission decides whether                 Prepare structural seismic evaluation
      structure requires demolition           reports with one of four conclusions:
      or reconstruction and creates
      an action plan.                         ● No seismic resistance
                                              ● Minimal seismic resistance
                                              ● Moderate seismic resistance
                                              ● More tests required for an opinion




                                                                                         4
The mission has a record of 1,474 USAID-built structures in Afghanistan. The task force
performs preliminary assessments of USAID-built structures to determine whether more
detailed structural seismic evaluations are needed. As of October 2009, the task force
had completed 468 preliminary assessments of USAID-built structures. The task force
had completed 35 detailed structural seismic evaluations as of the same date and
planned to complete about 200 evaluations by the end of the program.

Finally, with regard to the third goal, of providing quality assurance and engineering
oversight on USAID construction projects, the program was successful in providing
these services for projects initiated by the mission’s Office of Infrastructure, Engineering
and Energy, but it was less successful in providing these services for construction
projects initiated by other USAID program offices (page 11).




       A 105-megawatt power plant in Kabul, built under a USAID/Afghanistan project
       supported by the Human Resources and Logistical Support Program. The program
       provides an onsite quality assurance electrical engineer. (Photograph courtesy of
       Louis Berger Group, Inc./Black and Veatch Joint Venture, October 2009)


Despite the program’s progress in addressing its three main goals, serious issues need
to be addressed to improve mission implementation of construction programs. These
issues include the need to:

•	 Develop a reconstruction program to ensure implementation of action plans to
   demolish and/or repair USAID/Afghanistan-built structures that have been found to
   be seismically unsafe.

•	 Identify all USAID/Afghanistan-built structures that are seismically compromised.

•	 Correct defects found in five USAID/Afghanistan-built structures identified in a
   previous Office of Inspector General (OIG) audit.



                                                                                           5
•	 Ensure that all mission construction projects are subject to quality assurance
   oversight and support.

•	 Ensure the sustainability of a $3.9 million data center developed under the program.

•	 Ensure that program contractor performance reports are completed.

Many USAID-Built Structures
Have Been Found To Be Unsafe,
and More Defective Structures
Have Yet To Be Identified
Summary. A U.S. Geological Survey assessment recommended that buildings in
Afghanistan be designed to reduce the hazards posed by strong earthquakes. To its
credit, the mission established the Building Forensics Task Force under the Human
Resources and Logistical Support Program to identify USAID-built structures that cannot
withstand earthquakes. However, the task force found that many of the buildings
constructed through USAID projects have not been built to withstand strong
earthquakes. As of August 2009, the task force had identified 15 structures that were
unsafe for occupancy and had informed Afghan Government ministries to vacate these
structures. It is likely that more such defective structures will be identified by the task
force. The structures’ defects resulted from a lack of adequate oversight. If such
defective structures are not all identified, and if structures already found to be defective
are not reconstructed or repaired, a catastrophic earthquake could cause many injuries
and deaths.

An assessment, dated April 2007, by the U.S. Department of Interior’s U.S. Geological
Survey recommended that, as Afghanistan rebuilds following decades of war and strife,
new construction and development be designed to reduce the hazards posed by strong
earthquakes. The recommendation aimed to ensure that structures built by the U.S.
Government in Afghanistan remain safe for occupancy throughout the useful lives of the
structures.

To its credit, the mission established the Building Forensics Task Force under the
Human Resources and Logistical Support Program to identify USAID-built structures that
cannot withstand earthquakes. The task force has determined that many of the
buildings constructed by USAID/Afghanistan projects have not been built to withstand
strong earthquakes. As of August 2009, the task force had determined through seismic
evaluation that 15 structures were unsafe for occupancy and had informed the Afghan
Government ministries to vacate these structures.

The identified defective structures include six schools, two health clinics, one Ministry of
Justice building, one Ministry of Education building, and five buildings of the Ministry of
Agriculture, Irrigation, and Livestock. The mission has contacted the respective
ministries and recommended that all 15 defective structures be vacated. In addition, the
mission recommended that construction cease on one additional project because of the
poor quality of work being performed. The mission is developing action plans to
reconstruct 8 of the 15 defective structures. The five structures built for the Ministry of
Agriculture, Irrigation, and Livestock were reported as defective in a prior OIG audit

                                                                                          6
report,2 and the mission is working with the contractor that built these structures to
resolve the problems (page 8).

Additional seismic evaluations are in process, and the mission anticipates that
International Relief and Development, Inc. (IRD), will complete 200 seismic evaluations
by the end of its contract in February 2011. Our review of the task force’s 35 existing
seismic reports revealed that 12 structures were considered to have no resistance to
seismic activity, while an additional 13 were only minimally resistant to seismic activity.
These findings demonstrate the potential that additional buildings will be found unsafe.

Additional defective structures may be found within the current universe of 1,474 known
USAID-built structures, and this universe is not complete. The mission noted that it is
still updating its database of structures, and will likely identify and add more structures to
the database. As of October 2009, the mission had internally budgeted approximately
$123 million through fiscal year 2011 for repair or reconstruction of defective buildings.

                                                                A USAID-built girls’ high school in
                                                                Kabul has unsecured concrete
                                                                ceiling panels supported by
                                                                concrete ceiling beams. Signs of
                                                                stress are evidenced by the
                                                                cracks   in    the    unreinforced
                                                                masonry wall. The ceiling panels
                                                                support several inches of topsoil
                                                                spread on the roof for insulation.
                                                                This structural weakness could
                                                                cause the ceiling to collapse
                                                                during an earthquake, crushing
                                                                students under tons of debris.
                                                                (Photograph       courtesy       of
                                                                USAID/Afghanistan.)




The May 2008 earthquake in China that destroyed numerous buildings and killed
thousands motivated the mission to create the Building Forensics Task Force. The
mission was concerned that schools, clinics, hospitals, and other government structures
built in the mission’s early years had not received proper engineering oversight. The
mission was especially concerned about structures resulting from building projects
monitored by program offices rather than the mission’s Office of Infrastructure,
Engineering and Energy. Engineering oversight, though common practice in the
mission’s Office of Infrastructure, Engineering and Energy, was not a requirement for the
mission’s program offices until November 2008. When the mission first began
constructing buildings in Afghanistan, it was not uncommon for a program office
employee without an engineering background to oversee construction projects. As a
result, construction of 40 buildings under the mission’s Rule of Law program from 2003
to 2006 did not have sufficient engineering oversight, and the structures were accepted
by the Democracy and Governance program office. According to the mission, when
construction first started in Afghanistan, there was intense political pressure to construct

2
   “Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program,” Audit Report No.
5-306-08-009-P, August 8, 2008.

                                                                                                7
buildings quickly and show impact through new construction and employment of local
labor for this construction.

If defective structures are not all identified, and if structures already found to be defective
are not demolished or repaired, a catastrophic earthquake could cause many injuries
and deaths. In Kabul, which is located in a high-risk seismic area, a typical high school
can have as many as 1,000 students in it at one time. The structural failure of even one
of the schools constructed by the mission could have catastrophic consequences in
terms of students killed or injured. According to the mission, although it has not yet
quantified the total number of defective buildings, it is dedicated to identifying and
reconstructing such defective structures.

Rebuilding defective structures will be very expensive. Whereas the original cost for
building (or renovating) 7 of the 15 defective structures discussed above was only
$498,563, reconstruction costs for these buildings are expected to be significantly
greater. A preliminary estimate of the cost to reconstruct these seven defective
buildings is $14.4 million: $11 million in reconstruction costs plus an additional
$3.4 million for temporary space for occupants during the reconstruction. Although the
mission initiated internal discussions about creating a separate reconstruction program
for defective structures, no formal program had been set up to do so at the time of our
fieldwork.

Although the mission has addressed the lack of oversight of quality control with regard to
future projects, it must ensure that reconstruction action plans for defective structures
are carried out promptly and that all defective USAID-built structures are identified. We
are therefore making the following recommendation:

   Recommendation 1. We recommend that USAID/Afghanistan establish a
   separate reconstruction program that will provide prompt implementation of
   reconstruction action plans for defective structures and ensure that all defective
   USAID-built structures are reconstructed.

Prior Reported Building Defects
Have Not Been Corrected
Summary. Five of the structures found defective by the Building Forensics Task Force
had been cited as having significant defects in an OIG audit report issued in August
2008. As a result of that report, in May 2009 the mission directed Chemonics—the
USAID contractor that had built the five structures—to correct the defects. The Federal
Acquisition Regulation states that if a contractor fails to promptly perform required
services or take action necessary to ensure future performance in conformity with
contract requirements, the Government may (1) perform the services and reduce any fee
payable by an amount that is equitable under the circumstances or (2) terminate the
contract for default (FAR 52.246-5(e)). However, as of October 2009, Chemonics had
not yet begun work on demolishing and reconstructing three of the five buildings, nor
had it begun retrofitting the other two buildings to meet minimum earthquake standards.
This delay in fixing the defective structures resulted from Chemonics’ efforts to contest
its original agreement to remedy the defects. Failure to reconstruct or retrofit the
defective structures could not only result in injury or loss of life but could also adversely
affect the programs these structures were meant to benefit.

                                                                                             8
Five of the structures found defective by the Building Forensics Task Force had been
cited as having significant defects in a prior OIG audit report issued in August 2008.3 As
a result of a recommendation in that report, in May 2009 the mission directed
Chemonics—the USAID contractor that had built the five structures—to correct the
defects. Specifically, the mission directed Chemonics to demolish and reconstruct three
buildings in Parawan, Kundoz, and Panjshier Provinces and gave the option to either
retrofit two structures in Balkh and Herat Provinces or demolish and reconstruct them.
The five structures had been built for the Ministry of Agriculture, Irrigation, and Livestock
under the mission’s Accelerating Sustainable Agriculture Program. However, as of
October 2009, Chemonics had not yet begun work on demolishing and reconstructing
the three buildings in Parawan, Panjshier, and Kundoz Provinces and had not begun
retrofitting the buildings in Herat and Balkh Provinces. At the time of our audit, two of
the five buildings were already occupied and being used by the Afghan Government.

Further complicating the issue, Chemonics did not construct the buildings itself. Rather,
beginning in May 2007, Chemonics awarded firm, fixed-price subcontracts totaling
$458,000 to four subcontractors to construct the five buildings (see table below).
However, upon completion of the construction, inspections by IRD and mission
engineering representatives revealed numerous structural defects and noncompliance
with the construction subcontract terms.

            Chemonics Subcontractor Awards for Agriculture Program Structures

                                                                    Building
                                            Firm Fixed Price                       Number of
                 Subcontractor                                      Location
                                             ($ thousands)                         Structures
                                                                   (Province)
    Jahan Ara Construction Company                 106               Balkh              1
    Afghanistan Rehabilitation and
                                                   111               Heart              1
    Agriculture Organization
                                                                  Kundoz and
    Architectural and Engineering Company          153                                  2
                                                                   Parawan
    Khurasan Zameen Construction and
                                                    88              Panjshier           1
    Engineering Company

    Total                                          458                                  5


The mission subsequently directed the Building Forensics Task Force to evaluate the
seismic resistance of these five structures, and the task force found that the buildings
had little ability to withstand an earthquake. On the basis of the task force’s evaluations
and the lack of compliance with quality construction standards, the mission’s structural
engineer recommended that three of the structures be demolished and gave the option
for two structures in low seismic areas to be either retrofitted to meet local seismic
standards or demolished. The mission made its acceptance of the retrofitted structures
contingent upon correction of the other construction deficiencies identified during
previous IRD and mission inspections.


3
   “Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program,” Audit Report No.
5-306-08-009-P, August 8, 2008.

                                                                                                9
At no time did the mission accept the buildings as completed. In fact, the mission
withheld $403,000—representing previously billed construction costs—from Chemonics’
June 2008 invoice until it delivered acceptable buildings in accordance with the contract.
The mission had the authority to withhold these funds under acquisition regulations.
Specifically, the Federal Acquisition Regulation states that if a contractor fails to
promptly perform or take action necessary to ensure future performance in conformity
with contract requirements, the Government may (1) perform the services and reduce
any fee payable by an amount that is equitable under the circumstances or (2) terminate
the contract for default (FAR 52.246-5(e)).




       At the agricultural building in Balkh Province, the task force noted major cracks in
       key locations, indicating that supporting columns are either very weak or
       nonexistent. (Photograph courtesy of IRD.)


According to the mission, the delay in correcting the defective structures resulted from
Chemonics’ efforts to contest its original decision to absorb the cost of the demolition,
reconstruction, and retrofitting of the facilities. Chemonics believes that the mission had
been made fully aware of the construction efforts while they were underway and had
provided required approvals during the construction process. However, according to the
mission, Chemonics has provided no evidence to support these assertions.

Failure to reconstruct or retrofit defective structures could cause injury or loss of life and
reduce the success of the program these structures were meant to benefit. Recent site
visits by the mission revealed that, although it had never accepted any of these
structures, two were already occupied. Specifically, the Kunduz building had been
occupied by approximately 30 Afghan national police officers, while the building in
Parawan had been occupied by 2 employees of the Ministry of Agriculture, Irrigation,
and Livestock. Although these two structures are in a high-risk seismic area, they offer
only minimal seismic resistance. In the event of an earthquake, structural failures could
cause the buildings to collapse, injuring or killing the occupants. Delays in putting all five
structures to their intended uses have prevented the ministry from using the structures to
provide agricultural extension services and training in new agriculture methods. We are
therefore making the following two recommendations.




                                                                                              10
   Recommendation 2. We recommend that USAID/Afghanistan take immediate
   action to secure and vacate the two occupied defective buildings constructed under
   the Accelerating Sustainable Agriculture Program.

   Recommendation 3.           We recommend that USAID/Afghanistan complete an
   implementation plan for the demolition and retrofitting of the five buildings
   constructed under the Accelerating Sustainable Agriculture Program, either by
   compelling Chemonics to perform or by using a third party. If a third party is used,
   the implementation plan should include requirements to reduce Chemonics’ future
   billings in accordance with Federal Acquisition Regulation 52.246–5(e) for the cost of
   demolishing or retrofitting the structures.

Not All Mission Construction
Projects Are Covered by
Contract Quality Assurance
Support
Summary. In February 2006, USAID/Afghanistan contracted with IRD to provide
construction project management services—including quality assurance services—at the
mission’s direction. In November 2008, the mission’s Office of Acquisition and
Assistance released a notice requiring USAID/Afghanistan acquisition and agreement
instruments to include compliance with construction quality assurance requirements.
However, since the inception of the IRD contract, not all of the mission’s construction
projects have benefited from quality assurance services, onsite inspections, and
monitoring services as anticipated. Further, despite the office’s quality assurance
requirements for building construction, some construction projects are still not explicitly
covered—notably subcontracted activities and road projects. The projects lacked
oversight and quality assurance on construction projects because (1) the program office
did not understand the need for engineering oversight during construction, (2) mission
guidance did not specifically include subcontract instruments, (3) frequent turnover of
mission staff resulted in an uneven application of quality assurance requirements, (4) the
mission lacked a comprehensive and complete database of all USAID construction
projects, and (5) the mission had no requirement to obtain quality assurance services for
road construction. The effects of the lack of appropriate engineering oversight can be
measured in terms of risk of death or injury resulting from defective construction, the
high cost to demolish and rebuild defective work, and the delay in providing intended
benefits to project beneficiaries.

USAID/Afghanistan has taken steps to provide quality assurance for construction
projects. In February 2006, USAID/Afghanistan contracted with IRD to provide
construction project management services at the mission’s direction. These services
included quality assurance, onsite inspections, and project monitoring activities. In
November 2008, the mission required that USAID/Afghanistan acquisition and
agreement instruments comply with construction quality assurance requirements. These
requirements include compliance with international building codes, approval of all
construction designs by the Office of Infrastructure, Engineering and Energy before
acceptance, and establishment of a quality assurance surveillance program by all
construction projects.



                                                                                        11
However, since the inception of IRD’s contract in February 2006, not all of the mission’s
building and road construction projects have received quality assurance or monitoring
services. Further, although the Office of Acquisition and Assistance initiated quality
assurance requirements for the construction of buildings in 2008, some construction
projects, such as subcontracted activities, are not explicitly covered. Moreover, the
mission has never required quality assurance services for road construction projects,
and many roads constructed by program offices remain uncovered as a result.

The mission’s two Local Governance and Community Development (LGCD) programs
have construction components and yet had no construction engineering oversight, even
though the IRD contract was in effect. For example, the Local Governance and
Community Development Program for southern and eastern Afghanistan had 166
infrastructure projects, budgeted at approximately $37 million, and some of these
projects had begun as early as January 2007—almost a year after the IRD contract had
been implemented. Yet, the mission did not modify the IRD contract to include
engineering quality assurance and engineering oversight to monitor in-progress
construction programs until September 2009. Infrastructure projects ranged from small
projects, such as digging wells, to construction of major roads and large government
offices. Not all of these projects may have required quality assurance and engineering
oversight, but significant projects should have been covered. For example, the LGCD
implementing partner began constructing a courthouse in Helmand Province at a cost of
approximately $707,000. Although the project started only 2 weeks before the effective
date of the mission’s new policy, it received only three quality assurance visits in the
year before its expected completion at the end of October 2009.

Another example is the Local Governance and Community Development Program in the
northern and western provinces where the implementing partner initiated infrastructure
projects in June 2007. These projects likewise did not receive proper quality assurance
oversight during construction, and quality assurance assistance was requested only at
the end of construction. For example, the Bakwa to Khormaliq road project planned to
construct a 23-kilometer gravel road with culverts, causeways, and retaining walls at an
estimated cost of $600,000. Work on the road began in September 2008 and ended in
March 2009. However, the mission did not request that IRD review the construction of
the road until the end of the project, when it was experiencing difficulties. IRD concluded
that road construction had deviated from the engineering design, resulting in problems
such as defective construction of culverts. This program has since been terminated, and
the mission is negotiating settlement costs including the potential recovery of costs for
the defective road.

                                                                   The improper placement
                                                                   of a culvert caused the
                                                                   road to wash out on the
                                                                   USAID-funded Bakwa to
                                                                   Khormaliq road project
                                                                   in    Farah    Province.
                                                                   (Photograph courtesy of
                                                                   IRD.)




                                                                                         12
In addition, even though the mission had issued its November 2008 notice requiring
quality assurance and engineering support for building construction, some projects still
did not receive proper engineering oversight. For example, in August 2008 the mission
entered into a $42 million cooperative agreement with the American University of
Afghanistan. This agreement included $300,000 for the architectural and engineering
design of a new campus, and the expected deliverable included detailed engineering
drawings of several buildings and roads. In June 2009, the university issued a request
for proposal without the knowledge of the acquisition officer’s technical representative
and, in October 2009, was in final negotiations for the award of a subcontract. However,
a mission engineer had not been engaged at any point in the request for proposal or
subcontractor selection processes. According to the mission’s agreement officer, the
subcontract will be reviewed by the mission before it is awarded by the university to
ensure that appropriate engineering standards were incorporated into the design
process. Because this review process is taking place at such a late stage, the project
may encounter delays. If the design process is found not to have met appropriate
standards, the university may have to restart the bidding process.

The mission’s Office of Infrastructure, Engineering and Energy becomes involved in road
projects only when requested. Further, it has little knowledge of all the road programs
being implemented throughout Afghanistan by the mission’s various program offices.
The office said that it should be involved in construction of all major roads, including
tertiary gravel roads with significant traffic, such as those being built under the local
governance programs.

Various factors caused the lack of oversight and quality assurance on construction
projects. For example, (1) the program office did not understand the need for
engineering oversight during construction, (2) mission guidance did not specifically
include subcontract instruments, (3) frequent turnover in mission staff resulted in an
uneven application of quality assurance requirements, (4) the mission lacked a
comprehensive and complete database of all USAID construction projects, and (5) the
mission had no requirement to obtain quality assurance services for road construction.
These five issues are discussed below.




   The Surobi Justice Building in Kabul Province was constructed in 2004 under the mission’s
   Rule of Law program. According to building employees, the cracks were caused by a minor
   earthquake that occurred around 2006–07. The cracks are visible around the entire perimeter
   of the exterior wall. This building has no seismic resistance to earthquakes and is
   considered at high risk for failure. (Photograph courtesy of IRD.)



                                                                                             13
Program Offices Have Not Understood the Need for Engineering Oversight.
According to the mission, program offices used to provide oversight for their own
construction projects but did not fully comprehend the need for engineering oversight
during the construction process. The program offices were under pressure to construct
buildings quickly and assumed that the contractors they had hired would provide needed
oversight.

Mission Rules Did Not Explicitly Cover Subcontracts. The mission’s November
2008 quality assurance guidance is silent on its applicability to subcontracts. The
mission’s Office of Acquisitions and Assistance agreed that, in principle, the notification
was intended to apply to all mission-funded construction projects implemented either
directly or through subcontracts. However, mission personnel appear not to have
treated subcontracts in the same manner as prime contracts and agreements in this
regard.

Frequent Turnover in Mission Staff Results in an Uneven Application of Quality
Assurance Requirements. The turnover experienced by the mission in its contracting
officer’s technical representative (COTR) staff has had two effects on mission
construction projects.    First, new COTRs may not be aware of the mission’s
requirements to obtain engineering oversight on construction projects because the
current COTR designation letter does not communicate revised requirements for
construction oversight and quality assurance. Second, as COTRs change, the oversight
of construction projects may became fragmented. For example, under one COTR, an
engineer was allowed to confer directly with subcontractors on compliance with
construction standards; however, when that COTR left, the new COTR required all
communication to go through him—he would then inform the prime contractor, who
would communicate to the subcontractor. This indirect system produced delays in
communicating construction quality issues.

Mission Has No Database of All Construction Projects. The mission’s Office of
Infrastructure, Engineering and Energy has no comprehensive database of all
construction projects. According to the mission, the office could enforce the application
of engineering quality assurance oversight more easily if it were aware of all the
construction projects being implemented by the mission’s various program offices.
However, the office becomes aware of many of these projects only sporadically.

Quality Assurance Oversight Is Not Required for Road Projects. Finally, according
to the mission, it has no existing policy on engineering services required for road
projects because the program emphasized building construction. In devising the
November 2008 quality assurance guidance, the mission emphasized building
construction initially in response to the imminent threat to building occupants posed by
earthquakes. The mission commented that, in retrospect, a policy for roads should have
been developed as well.

In summary, a lack of appropriate engineering oversight can result in a risk to lives,
substantial reconstruction costs to demolish and rebuild defective work, and a delay in
providing intended benefits to project beneficiaries. For example, the Bakwa to
Khormaliq road was intended to benefit over 10,000 local inhabitants; with the road still
not repaired, those benefits have been put on hold. As a result, we are making the
following recommendations.


                                                                                        14
Recommendation 4. We recommend that USAID/Afghanistan revise and
reissue the November 2008 Office of Acquisition and Assistance notice on quality
assurance to include requirements for quality assurance of construction
performed under subcontracts and subagreements.

Recommendation 5.          We recommend that USAID/Afghanistan revise its
contracting officer’s technical representative designation letter to communicate
the need to comply with construction oversight and quality assurance
requirements.

Recommendation 6. We recommend that USAID/Afghanistan develop written
procedures covering the types of roads that require engineering oversight and
quality assurance.

Recommendation 7. We recommend that USAID/Afghanistan take appropriate
action during each portfolio review to require that all in-progress and completed
construction projects during the review cycle are documented and shared with
the Office of Infrastructure, Engineering and Energy so that it can ensure that the
existing database of constructions projects is complete and provide engineering
quality assurance oversight for those projects lacking it.

Recommendation 8.         We recommend that USAID/Afghanistan establish
procedures to grant the mission engineers or their designated representatives
the right to communicate directly with the construction contractors or
subcontractors on deviations from approved engineering designs.

Recommendation 9. We recommend that USAID/Afghanistan require that the
final subcontract requirements for the design of the new campus for the
American University of Afghanistan be reviewed for adherence to appropriate
engineering standards.

Recommendation 10. We recommend that USAID/Afghanistan require that all
engineering drawings related to the American University of Afghanistan campus
be reviewed for compliance with specified standards before the mission accepts
delivery of the drawings.




                                                                                      15
Sustainability of the $3.9 Million
Afghanistan Infrastructure Data
Center Is Questionable
Summary. USAID/Afghanistan included sustainability as a core element of program
design by requiring IRD to develop infrastructure and data management capacity for the
Ministry of Public Works. However, IRD’s work plan discusses only Ministry of Public
Works capacity development; it has no specific requirements for other ministries’
capacity development with regard to the Afghanistan Information Data Center funded by
the program. The original data center was expanded significantly beyond its original
specifications, and while the mission recognizes that the Afghan Government is not
ready to take responsibility for the center and is planning to incorporate the center in a
follow-on contract, the current request for proposal for that contract does not directly
address taking over the data center or training Afghan officials in its maintenance and
use. Without a sustainability plan in place, the estimated $3.9 million investment in the
data center and the information in the database could be lost.

Sustainability is a core element of USAID program design, as shown in the Agency’s
strategic plan checklist, which requires strategic teams within the mission to address two
questions:

(1) Is the achievement of sustainability for [program] institutions and processes realistic
    and within the planned timeframe for the completion of USAID’s assistance to a
    specific strategic objective and/or a country’s graduation from USAID assistance?

(2) Will sustainability plans be provided for key institutions and processes that will be
    necessary beyond the timeframe of the USAID strategy?

IRD’s work plan requires it to develop national and provincial infrastructure data
management capacity at the Ministry of Public Works and its satellite offices for the
eventual transition of the proposed Afghanistan Infrastructure Data Center (data center)
to the Afghan Government. The data center includes the staff, hardware, and software
used by the program to create a “geospatial” database. This geospatial database
catalogs and manages data resulting from USAID and other U.S. and international
donor-funded projects (e.g., project reports, photographs, or technical drawings). In
addition, the database stores other pertinent geographical and historical information
(e.g., seismic activity zones and historical security information). Database users can
query the data and display it on static and interactive maps or overlay it onto existing
maps.

The data center was designed to act as a clearinghouse for the major donors—primarily
USAID/Afghanistan and the U.S. Department of Defense. IRD was tasked with creating
a geospatial database with information on development activities including construction
of roads, schools, clinics, hospitals, and public buildings such as courthouses and district
centers. IRD was expected to obtain infrastructure project site information from
USAID/Afghanistan and the U.S. Department of Defense and verify the accuracy of the
data provided, such as the project’s description and location. In the future this database
would be expected to include projects from other donors as well. However, while the
work plan alluded to providing capacity development to the Ministry of Public Works,
which is in charge of road maintenance, there was no such provision for other ministries.

                                                                                         16
Further, IRD’s contract for the data center included no clear requirement for a
sustainability plan or exit strategy.

According to the mission, the scope of the project grew beyond the original plan. The
mission realizes that the Afghan Government will not be ready to take over the data
center, and the mission plans to have a follow-on contract take over the data center.
However, a review of the draft request for proposal for the follow-on contract revealed
that it did not include requirements for the maintenance and further development of the
data center. Nor did the draft request for proposal include any requirements for training
Afghan ministry personnel or transition of data center management and maintenance to
the Afghan Government.

Without a sustainability plan in place, the estimated $3.9 million invested in the data
center, as well as the information currently in the database, could be lost. Furthermore,
the information would not be updated and would therefore be of little use to the mission
and the Afghan Government in planning their respective development and maintenance
activities.

According to IRD, the data center will cost approximately $3.9 million. Without continued
sustainability of the data center, this initial investment will be wasted if the data is
unused or becomes outdated. The data center created and currently maintained by IRD
contained information related to 141 road projects, 1,162 building construction projects,
and 83 miscellaneous projects such as dams and hydrological stations.

Further, the mission’s ability to use the information for identifying future projects will also
be minimized as the data becomes outdated. According to the mission, besides helping
it identify areas for future development activities, another goal of this data center was to
provide the Afghan Government with a means of identifying infrastructure projects that
require maintenance and to identify projects to submit to other donors for construction.
By not providing for sustainability of the data center, the mission could diminish the
effect of other programs to build Afghan Government capacity. To ensure sustained
operation of the data center, we are making the following recommendation.

   Recommendation 11. We recommend that USAID/Afghanistan require that the
   final statement of work clearly identify the continuation of the Afghan
   Infrastructure Data Center as a core aspect of the follow-on contract, to include
   training of Afghan Ministries in the maintenance and use of the data center.




                                                                                            17
Contractor Performance
Reviews Were Not Completed
The Federal Acquisition Regulation (FAR 42.15024) requires the mission to evaluate
contractor performance and prepare a past-performance report for each construction
contract of $550,000 or more and each architectural services contract exceeding
$30,000. According to the regulation, these performance reports should be prepared at
the time of final acceptance of a completed construction project or at other times in
accordance with Agency procedures. USAID Acquisition Regulation 742.15 requires
contracting officers to report on contractor performance at least annually.

The mission has not completed annual contractor performance evaluations of IRD as
required. The mission should have completed at least three performance reviews by
February 2009, 3 years after the signature of the contract. However the mission
completed only one such required review. As of October 2009, the most recent review
to cover the last 2 years of performance was still in draft form. According to the COTR,
the failure to conduct a contractor performance review for the second year of the
contract was an administrative oversight.

Regular, comprehensive, and conscientious performance evaluations can provide the
mission with information to make better acquisition decisions and serve as a significant
incentive to contractors to provide USAID with superior products and services. Further,
the U.S. Government Accountability Office has ruled that failure to properly document
contractor performance information and make the information available for use in source
selections for the same or similar items is a sufficient basis to sustain a protest of a
contract award in a subsequent source selection. We are therefore making the following
recommendation.

      Recommendation 12. We recommend that USAID/Afghanistan complete all
      required contractor performance reviews of International Relief and
      Development, Inc., in accordance with Agency procedures.




4
    Previously numbered FAR 36.201.

                                                                                     18
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final actions have been taken on six
recommendations, and management decisions have been reached on six
recommendations. The status of each of the 12 recommendations is shown below.

Final action—recommendations 1, 3, 4, 9, 10, and 11
Management decision—recommendations 2, 5, 6, 7, 8 and 12

For recommendation 2, the mission has begun coordinating with the Afghan
Government on vacating the agricultural buildings that require demolition under the
Accelerated Sustainable Agriculture Program. The mission expects action to be
completed by May 31, 2010.

For recommendation 5, the mission will revise the COTR designation letter for all awards
that have construction and architectural and engineering (A&E) components to include
directions on compliance with the mission’s construction oversight and quality assurance
requirements. Additionally, the mission will issue internal guidance advising all
contracting officers that, for any award with construction and A&E components, the
COTR designation letter must include the requirements for construction monitoring and
quality assurance services. We expect final action to be complete when the mission
issues the above-mentioned guidance to the contracting officers and all current
applicable COTR designation letters are updated to include the directions on compliance
with the mission’s construction oversight and quality assurance requirements.

For recommendation 6, the mission’s road team is drafting the procedures for providing
the appropriate engineering oversight and quality assurance services to specific types of
roads. The mission expects action to be completed by April 30, 2010.

For recommendation 7, the mission will use the portfolio reviews to collect information on
ongoing and completed construction and engineering projects during the review cycle.
The information will be provided to the Office of Infrastructure, Engineering and Energy
for inclusion in the infrastructure database and, if warranted, in the list of construction
projects requiring engineering oversight and quality assurance services. The mission
expects action to be completed by December 31, 2010, when it issues the agenda for
the portfolio review that includes reporting on ongoing and completed construction
projects during the review cycle. In addition, we expect that the mission will incorporate
this procedure in future portfolio reviews through the issuance of an internal
memorandum or other internal guidance.

For recommendation 8, to ensure that direct communication is allowed across all
construction contracts and does not depend on the COTR’s preference, the mission will
establish procedures for communicating observed deviations. Direct communication
with construction contractors will be limited to discussions of deviations and should not




                                                                                        19
include instructions that could result in significant changes to the contract. The mission
expects action to be completed by June 30, 2010.

For recommendation 12, contractor performance reviews (CPRs) covering the first 3
years of the contract have been completed and submitted to the Contractor Performance
System, which is maintained by the National Institutes of Health. The mission is now
drafting the CPR for the 4th year, which ended on February 28, 2010. The mission is
soliciting input to complete the most recent CPR. The mission expects action to be
completed by March 31, 2010.

We consider that management decisions have been reached on recommendations 2, 5,
6, 7, 8, and 12. Determinations of final action will be made by the Audit Performance
and Compliance Division upon completion of the planned corrective actions.




                                                                                       20
                                                                                APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of this audit was to determine
whether USAID/Afghanistan’s Human Resources and Logistical Support Program (the
program) is achieving its main goals of enhancing capacity at selected ministries,
identifying USAID-constructed buildings that do not meet seismic standards, and
providing quality assurance and engineering oversight for mission construction projects.

In February 2006, USAID/Afghanistan awarded a 5-year, $58 million contract to
International Relief and Development, Inc. (IRD), to implement the program. The goals
of the program included enhancing capacity at various ministries including the Ministries
of Public Works, Energy and Water, and Mines. It also included providing ongoing
quality assurance and engineering oversight for mission construction projects. In
September 2009, USAID/Afghanistan expanded the contract scope of work to increase
the contract ceiling price to $72 million to include, among other things, identifying
buildings previously constructed by USAID that did not meet seismic standards. As of
September 30, 2009, USAID/Afghanistan had obligated $47 million and disbursed
$36 million for program activities.

The audit was performed in the Islamic Republic of Afghanistan from October 6, 2009,
through October 29, 2009, and covered the program’s activities implemented by IRD
from March 1, 2006, to October 29, 2009. In Kabul, fieldwork was conducted at
USAID/Afghanistan, IRD’s home office, and the Ministry of Energy and Water. We also
conducted site visits in Kabul and Badakhshan Provinces. Specifically, we visited the
105-megawatt Kabul power plant, the Rabia School and Ghazi Boys’ High School in
Kabul, and a midwife training center in Faizabad. We also reviewed construction and
paving on the road from Keshim to Faizabab in Badakhshan Province.

As part of the audit, we assessed the significant internal controls used by
USAID/Afghanistan and IRD to monitor program activities. The assessment included
controls related to whether the mission and IRD had (1) conducted and documented site
visits to evaluate progress and monitor quality, (2) required and approved an
implementation plan, (3) reviewed progress reports submitted by IRD, and (4) compared
reported progress to planned progress and the mission’s own evaluations of progress.
We reviewed invoices totaling $6.7 million from the total $36 million disbursed for
program activities. We also reviewed the mission’s Federal Managers’ Financial Integrity
Act report for fiscal year 2008, as well as prior audit reports, for any issues related to the
audit objective.




                                                                                           21
Methodology
To answer the audit objective, we interviewed officials from USAID/Afghanistan; the
implementing partner, IRD; representatives from Louis Berger Group, Inc./Black and
Veatch Special Project Corporation Joint Venture; subcontractors; and host government
ministry officials. We also reviewed and analyzed relevant documents at both the
mission and IRD. This documentation included performance management plans and the
contract between USAID/Afghanistan and IRD. Furthermore, we reviewed IRD site visit
and other monitoring reports, progress reports, and financial records.

To determine the reliability of computer-processed data received from the mission in
support of its obligated and disbursed amounts, we reviewed prior audits of the mission’s
financial statements and internal controls. In addition, to validate data provided by IRD,
we verified a judgmental sample of:

•   Training participants to source documents.
•   Building Forensics Task Force statistics to supporting documentation.




                                                                                       22
                                                                            APPENDIX II 




MANAGEMENT COMMENTS


MEMORANDUM

TO:                   Bruce N. Boyer, Regional Inspector General/Manila

FROM:                 USAID/Afghanistan Mission Director, William M. Frej/s/

DATE:                 March 24, 2010

SUBJECT:              Audit of USAID/Afghanistan’s Human Resource and Logistical
                      Support Program (Audit Report No. 5-306-10-XXX-P)

REFERENCE:            B. N. Boyer memo dated February 22, 2010

Dear Mr. Boyer:

Thank you for providing the Mission the opportunity to review the subject draft audit
report and respond to the findings and recommendations therein. We appreciate the
professionalism and objectivity exhibited by the audit team in conducting the
assessment and preparing thoughtful recommendations. This memo describes the
actions that have been taken or are planned to be taken to address the
recommendations in the audit report.

MISSION RESPONSE TO AUDIT RECOMMENDATIONS

Recommendation 1. We recommend the USAID/Afghanistan establish a separate
reconstruction program that will provide prompt implementation of reconstruction
action plans for defective structures and to ensure that all defective USAID-built
structures are reconstructed.

The Mission agrees in principle with the recommendation to promptly implement
reconstruction action plans. To achieve the desired result, the Mission will
implement the required changes using an alternative implementation strategy than
that proposed in the recommendation. Rather than establishing a separate
reconstruction program, the Mission will use existing contracting mechanisms. A
Structural Engineer, Forrest Lanning, will manage the assessment of buildings while
the new Construction Manager, Peter Belli, will supervise the reconstruction of
defective buildings.




                                                                                        23
Actions Taken:

The establishment of a separate reconstruction program entails planning, design, and
procurement of necessary engineering and construction services before actual
implementation can begin. The Mission needs to compete the procurement of goods
and services which could take an average of eight months. Following the award of
contracts or grants, the contractors or grantees have to recruit staff, mobilize and set
up offices in Afghanistan. Given these processes, it could be a year before a separate
reconstruction program is fully established and equipped to implement reconstruction.

USAID/Afghanistan recognizes the urgency of reconstructing defective structures to
ensure the safety of their occupants. To jump-start the reconstruction process, the
Mission is using mechanisms already in place or in the procurement process, rather
than establishing a separate program. The Office of Infrastructure, Engineering and
Energy (OIEE) has existing contracts with specialized firms for planning and
engineering design, and is in the process of competing an indefinite quantity contract
that will provide the Mission with construction services for vertical structures. By
using these mechanisms, the Mission can initiate reconstruction work sooner. The
use of existing mechanisms also avoids repetitious administrative and logistical costs
associated with maintaining multiple contractors for similar tasks. To ensure that the
Mission will not lose its focus on the reconstruction work, OIEE hired a Structural
Engineer (Forrest Lanning) and a Construction Engineer (Peter Belli) whose principal
tasks are to coordinate and manage the building forensics activity and the
reconstruction of defective buildings.

Using existing contracts, the Mission has initiated reconstruction activities, starting
with the preparation of site plans and standard school designs. Procurement of soft-
sided structures that will serve as temporary shelter is also in the final stages. The
Mission is positioned to ramp up its reconstruction efforts to the extent that funding
allows. It should be noted that, in the absence of FY 09 and FY 10 funding for
reconstruction, the Mission has reprogrammed $17.9 million of its FY 09 Energy
funds so that procurement of critical services can proceed simultaneously with the
structural assessment of buildings and reconstruction of two schools.

Based on these alternative implementation actions, the Mission requests RIG/Manila
concurrence that a management decision has been reached and that this audit
recommendation is closed.


Recommendation 2. We recommend that USAID/Afghanistan take immediate
action to secure and vacate the two currently occupied defective buildings
constructed under the Accelerating Sustainable Agriculture Program.

The Mission agrees with this recommendation.




                                                                                           24
Actions Taken:

On December 14, 2009, the Contracting Officer for the Accelerating Sustainable
Agriculture Program (ASAP) issued a technical directive (Attachment I) to
Chemonics to demolish all five AgNet buildings in the most expeditious manner. The
technical directive follows a series of communications from USAID to ASAP and the
Ministry of Agriculture, Irrigation and Livestock (MAIL) regarding the disposition of
the defective AgNet buildings. Since some of the buildings are occupied, ASAP
sought the assistance of Minister Rahimi of MAIL who wrote to provincial governors
asking them to support efforts to vacate the defective buildings. To facilitate
evacuation, ASAP also provided a liaison in Kunduz.

Based on ASAP’s demolition schedule, ASAP expects all five buildings to be vacated
by April 2010 to pave the way for demolitions to be completed by May 2010. In the
event that evacuation of the buildings is delayed, the Contracting Officer’s Technical
Representative (COTR) will seek USAID Front Office support in resolving the issue
at higher levels within the Afghan Government. The target date for closing this
recommendation is May 31, 2010.

Based on the actions taken, the Mission requests RIG/Manila concurrence that a
management decision has been reached and that this audit recommendation will be
considered closed when the buildings are demolished.


 Recommendation 3. We recommend that USAID/Afghanistan complete an
implementation plan for the demolition and retrofitting of the five buildings
constructed under the Accelerating Sustainable Agriculture Program either by
compelling Chemonics to perform or by using a third party. If a third party is used,
the implementation plan should include requirements to reduce Chemonics’ future
billings in accordance with Federal Acquisition Regulation 52.246–5(e) for the cost
of demolishing or retrofitting the structures.

The Mission agrees with this recommendation.

Actions Taken:

USAID/Afghanistan completed an implementation plan for the demolition and
reconstruction of the five AgNet buildings which was conveyed by the Contracting
Officer to ASAP in an email dated December 14, 2009 (Attachment I). A third party
is not being used for the demolition of the buildings. All demolition work is being
conducted by Chemonics.

In accordance with the implementation plan, Chemonics submitted two documents
that comprise the demolition plan, namely: 1) “General Plan for Demolition of the
Five Agnet Buildings” (Attachment II), and 2) the “Agnet 2010 ASAP Demolition
Schedule” (Attachment III). OIEE has reviewed the General Plan and the demolition


                                                                                         25
scope of work for compliance with the U.S. Army Corps of Engineers Safety and
Health Requirements and other applicable standards. To carry out the demolition,
Chemonics awarded four subcontracts to local firms, and is processing a subcontract
for the demolition of the fifth building. According to the schedule submitted by
ASAP, demolition of all five buildings will be completed by the third week of May
2010.

Plans are also in place for Chemonics to reconstruct, not retrofit, the five buildings
following demolition. OIEE will oversee the preparation of engineering design for
the new buildings under its contract with MWH Americas Inc. (MWH). Chemonics
will support USAID’s design efforts by conducting the geotechnical investigations for
each of the sites and preparing the site sketches. OIEE has been engaged in
reviewing the site sketches. Upon MAIL’s approval of the design plan, OIEE will
proceed with the full engineering design under the MWH contract. USAID will
review and approve the design before forwarding to ASAP for the preparation of
tender documents for construction services. Chemonics estimates that tender and
construction activities will require a total of 5.5 months.

With the completion of the implementation plan, the Mission requests RIG/Manila
concurrence that a management decision has been reached and that this audit
recommendation is closed.


Recommendation 4. We recommend that USAID/Afghanistan revise and reissue
the November 2008 Office of Acquisition and Assistance notice on quality
assurance to include requirements for quality assurance of construction performed
under subcontracts and subagreements.

The Mission agrees with this recommendation.

Action taken:

On December 7, 2009, the Office of Acquisition and Assistance (OAA) issued OAA
Notice 10-001 (See Attachment IV) to clarify and expand OAA Notice 09-001 dated
November 22, 2008. In addition to requiring coordination with OIEE on matters
affecting acquisition and assistance requirements with a construction component,
OAA Notice 10-001 also sets forth the following policy requirement that addresses
Recommendation 4:

       “Mission Agreement/Contract Officers will ensure that awards with a
       construction component contain appropriate clausal coverage. The resultant
       clausal coverage is applicable as flow-down to sub-awards under the prime or
       recipient awardee and must be considered in responding to consent request(s)
       involving construction.”




                                                                                         26
With the issuance of OAA Notice 10-001, the Mission requests RIG/Manila
concurrence that a management decision has been reached and that this audit
recommendation is closed.


Recommendation 5. We recommend that USAID/Afghanistan revise its contracting
officer technical representative designation letter to communicate the need to
comply with construction oversight and quality assurance requirements.

The Mission agrees with this recommendation.

Action to be taken:

Some COTRs, especially new hires, are not aware of the need to comply with
USAID/Afghanistan’s construction oversight and quality assurance requirements.
For this reason, there are construction projects that do not have the requisite quality
assurance services, giving rise to sub-standard construction. To address this problem,
OAA will revise the designation letter for all awards that have a construction and
architectural and engineering (A & E) component to include directions on compliance
with the Mission’s construction oversight and quality assurance requirements. These
requirements will be incorporated in Sub-section F of Section I: Responsibilities of
the COTR/AOTR (Agreement Officer Technical Representative) designation letter as
set forth in the Automated Directives System for designation of COTR/AOTR.
Furthermore, OAA will issue an internal guidance memorandum advising all
Contracting Officers that, for any award with construction and A & E component, the
COTR/AOTR designation letter must include the requirements for construction
monitoring and quality assurance services under Section I.F. The target date for
OAA issuance of the internal guidance described above is June 30, 2010.

Based on the actions identified above, the Mission requests RIG/Manila concurrence
that a management decision has been reached and that this audit recommendation will
be deemed closed when OAA issues the internal guidance memorandum advising
COs to include language in the applicable COTR/AOTR designation letters about the
need to comply with construction oversight and quality assurance requirements.


Recommendation 6. We recommend that USAID/Afghanistan develop written
procedures covering the types of roads that require mandatory engineering
oversight and quality assurance.

The Mission agrees with this recommendation.

Action to be taken:

All road projects need engineering oversight and quality assurance to ensure that they
are built to standards and would last through their designed economic life. The extent


                                                                                          27
and type of quality assurance services needed depends on the type of road being built
or rehabilitated. For example, a paved road involves more complex procedures than a
gravel road and would, therefore, require more intensive monitoring.
USAID/Afghanistan’s Road Team is drafting the procedures for providing the
appropriate engineering oversight and quality assurance services to specific types of
roads. The target date to fully close this recommendation is April 30, 2010, when
OAA issues the notice prescribing the engineering oversight and quality assurance
services for all types of road project.

Based on the actions identified above, the Mission requests RIG/Manila concurrence
that a management decision has been reached and that this audit recommendation will
be deemed closed when OAA issues the notice prescribing the engineering oversight
and quality assurance services for each type of road project.


Recommendation 7. We recommend that USAID/Afghanistan take appropriate
action during each portfolio review to require that all in-process and completed
construction projects during the review cycle are documented and shared with the
Office of Infrastructure, Engineering and Energy as a means for it to ensure the
existing database of constructions projects is complete and provide engineering
quality assurance oversight for those projects lacking it.

The Mission agrees with this recommendation.

Action to be taken:

USAID/Afghanistan recognizes the need for all offices to inform OIEE of all
construction projects to enable it to plan and provide the appropriate engineering
services and oversight in accordance with Mission policy. USAID will use the
portfolio reviews to collect information on ongoing and completed construction and
engineering projects during the review cycle. The information will be provided to
OIEE for inclusion in the infrastructure database and, if warranted, in the list of
construction projects requiring engineering oversight and quality assurance services.
OIEE will also use information collected through the Afghan Info database managed
by the Office of Project and Program Development (OPPD) to confirm and
supplement the information on construction projects gathered from the portfolio
reviews. The target date to fully close this recommendation is December 31, 2010,
when OPPD issues the agenda for the portfolio review that includes reporting on
ongoing and completed construction projects during the review cycle.

Based on the actions identified above, the Mission requests RIG/Manila concurrence
that a management decision has been reached and that this audit recommendation will
be deemed closed when OPPD issues the agenda for the portfolio review that includes
reporting on ongoing and completed construction projects during the review cycle.




                                                                                        28
Recommendation 8. We recommend that USAID/Afghanistan establish procedures
to grant the mission engineers or their designated representatives the right to
communicate directly with the construction contractors or subcontractors on
deviations from approved engineering designs.

The Mission agrees with this recommendation.

Action to be taken:

The Mission agrees that procedures should be established to allow authorized
members of the contracting officer’s field support team to directly communicate their
field observations to construction contractor(s) regarding deviations from approved
engineering designs or non-conformity in performance. Direct communication with
construction contractors will be limited to discussions of deviations, and should not
include instructions that could result in constructive changes to the contract. To
ensure that direct communication is allowed across all construction contracts, and not
depend on the preference of COTRs, the Mission will establish procedures for
communicating observed deviations. These procedures will be included in Section
I.F of the COTR/AOTR designation letter, as described under Recommendation 5.
Section I.F will inform COTRs/AOTRs about the Mission’s engineering oversight
and quality assurance requirements, and describe communication procedures,
including allowing designated engineers to directly communicate with construction
contractor(s) regarding observed deviations from approved engineering designs. The
target date to fully close this recommendation is June 30, 2010.

Based on the actions identified above, the Mission requests RIG/Manila concurrence
that a management decision has been reached and that this audit recommendation will
be deemed closed when OAA issues the Memorandum advising COs to include
language in the COTR designation letters about the procedures allowing mission
engineers or their designated representatives to directly communicate with contractors
concerning deviations from approved engineering designs.


Recommendation 9. We recommend that USAID/Afghanistan require that the final
subcontract requirements for the design of the new campus for the American
University of Afghanistan is reviewed for adherence to appropriate engineering
standards.

The Mission agrees with this recommendation.

Actions Taken:

On December 7, 2009, the Mission issued OAA Notice 10-001 requiring that
subcontract requirements for construction and A & E services be reviewed and
approved by OIEE before OAA accepts them for processing. OIEE must review the
procurement requirements for adherence to appropriate engineering standards. The


                                                                                         29
OAA Notice covers both acquisition and assistance instruments and their sub-awards.
As such, the requirement applies to the design subcontract for the new campus of the
American University of Afghanistan (AUAF).

To ensure that the design of the American University of Afghanistan (AUAF) campus
adheres to engineering standards and USAID requirements, the Mission made a
determination to implement the design activity through a separate mechanism
managed by OIEE. This was conveyed to the AUAF President in a letter from the
Agreement Officer dated March 2, 2010 (Attachment V). Due to AUAF’s reticence
regarding USAID’s determination, discussions are ongoing to determine the best
option for proceeding with the design, including if the design should be funded by
USAID. Should AUAF and its Board of Trustees opt to use USAID funds for the
design activity, the procurement requirements will have to be reviewed for adherence
to appropriate engineering standards, in compliance with OAA Notice 10-001.

Based on the actions taken, the Mission requests RIG/Manila concurrence that a
management decision has been reached and that this audit recommendation is closed.


Recommendation 10. We recommend that USAID/Afghanistan requires that all
engineering drawings related to the American University of Afghanistan Campus
are reviewed for compliance with specified standards before the mission accepts
delivery of the drawings.

The Mission agrees in principle with this recommendation.

Actions Taken:

OAA Notice 09-001 dated November 22, 2008 (Attachment VI) requires that OIEE
shall review and approve vertical structures design submittals prior to acceptance by
OAA. However, the Mission can only enforce this requirement if the engineering
drawings for the AUAF campus are deliverables of a USAID-funded instrument.

In order to ensure compliance with specified standards, USAID has determined and
conveyed to AUAF that, if USAID funds are used for the design of the new campus,
OIEE would implement the activity under a separate mechanism that it manages.
This March, USAID will present AUAF with the following options for proceeding
with design activities, with or without funding:

   1.	 AUAF uses 100% of its own funding for all design services and proceeds
       with the firm selected by the Board of Trustees in November 2009. USAID
       will remove the International Architect line item from the cooperative
       agreement budget. No USAID Funds would be utilized for design, and
       USAID funds could not be applied to any resulting construction projects.
       Furthermore, AUAF’s private funds would be considered outside the
       cooperative agreement and excluded from cost share.


                                                                                        30
   2.	 UAF uses its own funding and procurement processes for design and
       construction of priority buildings. USAID funds would be used for site
       development (full concept design, including non-priority buildings, or other
       support as requested by AUAF to help integrate buildings and facilities onto
       the overall site). No USAID Funds would be utilized for design nor
       construction of priority buildings. USAID will remove the International
       Architect line item from the cooperative agreement budget. AUAF funds
       applied to the campus design would be considered outside the cooperative
       agreement and excluded from cost share.

   3.	 Proceed with 100% USAID funding for concept plans and buildings designs.
       USAID’s work with a design contractor will fast-track designs of priority
       buildings. International Architect line item within the cooperative agreement
       budget will be removed and the cooperative agreement reduced to cover
       USAID direct funding of design work.

   4.	 Proceed with 100% USAID funding for concept plans and building designs.
       Design of priority buildings will not be fast-tracked. International Architect
       line item within the cooperative agreement budget will be removed and
       cooperative agreement reduced to cover USAID direct funding of design
       work.

The Mission will be able to enforce the review of engineering drawings only in
Options 3 and 4 above.

Based on the actions taken, Mission requests RIG/Manila concurrence that a
management decision has been reached and that this audit recommendation is closed.


Recommendation 11. We recommend that USAID/Afghanistan require that the
final statement of work clearly identifies the continuation of the Afghan
Infrastructure Data Center as a core aspect of the follow-on contract, to include
training of Afghan Ministries in the maintenance and use of the data center.

The Mission agrees with this recommendation.

Actions Taken:

The Statement of Work for the Engineering Quality Assurance and Logistical Support
(EQUALS) Program, the follow-on activity, has been revised as follows to include
training of Afghan Ministries:


       “Update and maintain the infrastructure database developed under the Human
       Resource and Logistical Support Program, and develop the capacity of


                                                                                        31
       appropriate agency(ies) to take over its operation and maintenance through
       training of staff and preparation of user’s manuals, among others.”

Meanwhile, the ongoing Human Resource and Logistical Support (HRLS) Program
has completed an assessment of the Ministry of Public Works’ requirements to enable
them to operate and maintain the roads database. A presentation is also scheduled at
the Ministry of Energy and Water to inform the staff about the roll-out of the
infrastructure database called Afghanistan Infrastructure and Security Cartography
System (AISICS), and to discuss their involvement in a user needs assessment and
training on the use and administration of AISICS. HRLS has designed two courses
on GIS (Intro & Advanced ArcGIS 9.3) that will provide the tools needed to begin
working with AISICS. Following the roll-out of the online versions of AISICS in
April, 2010, an IRD GIS Manager will conduct training for partner Ministries in both
ArcGIS and AISICS on a weekly basis.

Based on the actions taken, the Mission requests RIG/Manila concurrence that a
management decision has been reached and that this audit recommendation is closed.


Recommendation 12. We recommend that USAID/Afghanistan complete all
required contractor performance reviews of International Relief and Development,
Inc. in accordance with Agency procedures.

The Mission agrees with this recommendation.

Actions Taken:

Contractor Performance Reviews (CPR) covering the first three years of the contract
have been completed and submitted to the Contractor Performance System (CPS) of
the National Institutes of Health. The COTR is now drafting the CPR for the fourth
year that ended on February 28, 2010. In order to complete a fair evaluation of the
contractor’s performance, the COTR has requested inputs from USAID staff
members, as IRD’s principal customers. The inputs will feed into the fourth year
CPR that will go into a clearance process prior to submission to the CPS. The target
date to fully close this recommendation is March 31, 2010, when the 4th year
evaluation is submitted to the CPS.

Based on the actions identified above, the Mission requests RIG/Manila concurrence
that a management decision has been reached and that this audit recommendation will
be deemed closed when the 4th year CPR is submitted to the CPS.




                                                                                       32
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue NW 

          Washington, DC 20523 

            Tel.: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
